IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

TYRONE VALENTINE, )
)
Petitioner, ) On Petition for Writ of
) Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
) Supreme Court Case No. 20-7326
Respondent. )

PROOF OF SERVICE
STATE OF MISSOURI )
CITY OF ST. LOUIS

The undersigned, being duly sworn and upon her oath, states is fOllows:

1. Lam counsel of record for Petitioner;

2. On this 2" day of July, 2021, I served copies of the Petitioner’s
Petition for Rehearing plus this Proof of Service, on each party to the above
proceeding, by depositing an envelope containing copies thereof with a third-party
commercial carrier for delivery within three days to:

Acting Solicitor General Elizabeth Prelogar
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
(202) 514-2217
and by delivering a copy of those documents by hand to:

Saylor A. Fleming, Acting United States Attorney
For the Eastern District of Missouri

Eagleton Federal Courthouse

111 South Tenth Street, 20" Floor

Saint Louis, MO 63102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 2, 2021.
3. Further affiant sayeth not.

Respectfully submitted,
[ZEA SDD C2
KEVIN C, CURRAN

Assistant Federal Public Defender

1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255
Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me on this 7 nd day of July, 2021.

fan PUBLIC 5

My commission expires:

REBECCA S., NANNA
‘Commission

May 31,2023
Louls County

‘Commission #1563574

 
